UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Marketing Practices

Craig Tregillus Direct Dial: (202) 326-2970
ctregillus@ftc.gov Facsimile: (202) 326-3395

August 21, 2007

Meredyth P. Partridge, President

Regulatory Support Services, Inc.
P.O. Box 83

Manakin-Sabot, VA 23103-0083

Dear Ms. Partridge:

This letter responds to your request for a staff opinion clarifying whether the Funeral Rule
requires a funeral provider to itemize the services provided as part of direct cremation, immediate
burial, forwarding of remains to another funeral home and receiving remains from another
funeral home when providing a Statement of Funeral Goods and Services Selected (“Statement”)
to a consumer.

Your inquiry implicates the interplay between the General Price List (“GPL”) and the
Statement. As you know, the Rule requires a funeral provider to give consumers who inquire in
person a copy of its GPL at the beginning of any discussion of funeral arrangements or prices."
At the conclusion of the discussion of arrangements, the funeral provider must give the customer
an “itemized” copy of the Statement that shows the funeral goods and services selected, their
prices, and the total cost.”

As your inquiry notes, the Rule requires a separate listing in the GPL for each of 16
specified services, including the services about which you inquire, “if offered for sale” by the
funeral provider.? Nothing in the Rule prohibits a funeral provider from offering additional
goods or services, however, including funeral packages. In fact, Section 453.2(b)(6) expressly
authorizes funeral providers to give consumers “any other price information, in any format, in
addition to that required by [the Rule].*

! 16 CFR § 453.2(b)(4).
2 16 CFR § 453.2(b)(5).

3 16 CER § 453.2(b)(4)(ii).

‘ 16 CFR § 453.2(b)(6).
Ms. Meredyth P. Partridge, President
Regulatory Support Services, Inc.
Page 2 of 3

Accordingly, the discussion of requirements for the Statement in the FTC’s compliance
guidelines for funeral providers, Complying with the Funeral Rule (“FTC Compliance Guide”)
advises funeral providers:

You may still offer funeral packages, as long as they are offered in addition to,
not in place of, itemized prices. If the consumer selects a package (after you
offer itemized prices), your Statement should describe the package, listing
individually each of the goods and services included in the package, and state the
package price.*

Thus, as your inquiry and the FTC Compliance Guide note, if a funeral package is
selected, the Statement must “describe” each package offered, “listing individually each of the
goods and services included in the package.” It is this requirement that has led to your question:
whether the Rule requires that the four services about which you inquire — direct cremation,
immediate burial, forwarding of remains and receiving remains — be treated as “packages” that
must be “described” in this detail in the Statement.

It is our opinion that the Rule does not require that the four services about which you
inquire be treated as “packages” because the Rule requires a description in the GPL that lists
“individually each of the goods and services” provided with these four services. The GPL must
include “a description of the services and container (where applicable)” included in each price
listed for a direct cremation,® as well as for an immediate burial.’ Likewise, the Rule requires “a
list of the services provided” for any price stated in the GPL for forwarding of remains,* and for
receiving remains.? Consumers may keep the GPL containing these descriptions because the
Rule requires funeral providers to give the GPL to them “for retention.””°

Because the GPL must include an itemization of the services provided for direct
cremation, immediate burial, forwarding remains, and receiving remains, staff has long taken the

position that no additional, duplicative “description” is required in the Statement for these four
services. Thus, the sample statement provided in the FTC Compliance Guide contains only one-

FTC Compliance Guide, p. 18 (bold in original; other emphasis added).
8 16 CFR § 453.2(b)(4)(ii(C)G).

7 16 CFR § 453.2(b)(4)(ii)(D)(3).

8 16 CER § 453.2(b)(4)(4)(A).

° 16 CFR § 453.2(b)(4)(ii)(B).

0 16 CFR §§ 453.2(b)(4).
Ms. Meredyth P. Partridge, President
_ Regulatory Support Services, Inc.
Page 3 of 3

line entries for the prices of direct cremation, immediate burial, forwarding remains, and
receiving remains.”

As you know, the views expressed in this letter are those of FTC staff. They have not
been reviewed, approved or adopted by the Commission, and they are not binding on the
Commission or any individual Commissioner. However, they do reflect the views of FTC staff
charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted
on the FTC website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.

Sincerely,
/s/

Craig Tregillus
Funeral Rule Coordinator

n FTC Compliance Guide, pp. 32-33.
